No. A-_________

In the Supreme Court of the United States
__________

JERYME MORGAN,
Applicant,
V.

MINH SCHOTT, TIM VEATH, AND HUDSON MAYNARD,
Respondents.
__________
APPLICATION TO THE HON. BRETT M. KAVANAUGH
FOR AN EXTENSION OF TIME WITHIN WHICH TO FILE
A PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
SEVENTH CIRCUIT
__________
Pursuant to 28 U.S.C. §2101(c) and Supreme Court Rules 13.5, 22, and 30.2,
applicant Jeryme Morgan respectfully requests an extension of time of sixty days
within which to file a petition for a writ of certiorari in this matter, to and including
July 5, 2019. The United States Court of Appeals for the Seventh Circuit issued its
opinion and judgment on February 5, 2019. See App. 1. The time to file a petition for a
writ of certiorari in this Court accordingly expires on May 6, 2019. This application is
being filed 10 days before that date.
A copy of the opinion of the United States Court of Appeals for the Seventh
Circuit is attached. The jurisdiction of this Court is based on 28 U.S.C. §1254(1).
1. This case presents a significant question of law that has divided the Circuits,
as the Seventh Circuit acknowledged in this case. The split arises over the application
of Heck v. Humphrey, 512 U.S. 477 (1994), to suits by inmates, like Morgan, who bring

2
42 U.S.C. §1983 claims arising from prison disciplinary sanctions that consist of both a
loss of good-time credits and additional penalties. Even if Heck bars §1983 suits
challenging the loss of good time, the question is whether that bar applies where, as
here, the inmate expressly waives any challenge to the loss of good-time credit and
advances his constitutional claims solely with respect to the other, non-good-time
sanctions. The Seventh Circuit answers that question in the affirmative, holding that
the Heck bar still applies. App. 1, at 2-3, 8-9 (relying on Haywood v. Hathaway, 842
F.3d 1026 (7th Cir. 2016)). As that court recognized, however, its holding breaks
squarely with the Second Circuit’s contrary rule. App. 1, at 8; see Peralta v. Vasquez,
467 F.3d 98, 105 (2d Cir. 2006) (holding that by abandoning his challenge to loss of
good time, the inmate/§1983 plaintiff ensures that “his success in the §1983 action
would have no effect on the sanctions that relate to the length of time he served in
prison, and the concern animating the Heck favorable termination rule would simply
not be implicated”); see also Haywood, 842 F.3d at 1030 (“We decline to follow
Peralta”). Moreover, the Ninth Circuit has sided with the Second. Brownlee v. Murphy,
231 Fed. App’x. 642, 644 (9th Cir. 2007). The split is ripe for this Court’s review.
3. Good cause exists for this application. On May 30, 2017, the Seventh Circuit
appointed Mayer Brown LLP attorney Marcia Maack to represent petitioner on appeal
in that court. On August 16, 2017, Mayer Brown attorney William Barrow was
substituted as appointed counsel for applicant. Mr. Barrow briefed and argued that
appeal, and the undersigned counsel is now serving as counsel of record for applicant in
this Court. Since the Seventh Circuit issued its judgment in this case, counsel’s

3
attention has been required on a number of matters. Counsel has been heavily involved
in several matters, including briefing for Kelley v. BMO Harris Bank N.A., No. 12-ap4288 (Bankr. D. Minn.), and Hardwick v. 3M Co., No. 2:18-cv-1185 (S.D. Ohio),
preparation of a comment letter to the Financial Stability Oversight Council, and
appeal-related work in Zino v. Whirlpool Corp., Nos. 17-3851/3860 (6th Cir.), and Baker
v. Saint-Gobain Performance Plastics Corp., No. 17-3942 (2d Cir.).
4. An extension of time will not prejudice respondents, and their counsel,
Nadine Wichern, Chief of the Civil Appeals Division of the Illinois Attorney General’s
Office, indicates that she does not oppose the requested extension.
For the foregoing reasons, the applicant hereby requests an extension of time, to
and including July 5, 2019, within which to file a petition for a writ of certiorari.
April 26, 2019

Respectfully submitted.

/s/ Joshua D. Yount
JOSHUA D. YOUNT
Counsel of Record
Mayer Brown LLP
71 South Wacker Drive
Chicago, IL 60606
(312) 782-0600
jyount@mayerbrown.com

